DOE/IG-0467




        AUDIT
       REPORT

                                         THE
                             U.S. DEPARTMENT OF ENERGY’S
                                    GLOBAL CLIMATE
                                   CHANGE ACTIVITIES




                                            APRIL 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                                April 6, 2000


MEMORANDUM FOR THE SECRETARY


FROM:                 Gregory H. Friedman (Signed)
                      Inspector General


SUBJECT:              INFORMATION: Audit Report on "The U.S. Department of Energy's Global
                      Climate Change Activities"


BACKGROUND

The President's Climate Change Proposal of October 1997 and the United Nation's Framework Convention
on Climate Change (FCCC), were intended to identify methods of reducing greenhouse gas emissions. The
FCCC was ratified by the U.S. Senate in 1992 and put into force in July 1994. The purpose of the Kyoto
Protocol (Protocol), a proposed amendment to the FCCC, is to reduce net emissions of certain greenhouse
gases (primarily CO2) by setting binding limitations on the emissions of developed countries throughout the
world. The Protocol was negotiated by more than 160 nations in December 1997, in Kyoto, Japan, pursuant
to the objectives of the FCCC. It mandates targets to limit or reduce greenhouse gas emissions for
developed countries, including the U.S., but not for developing countries. The Protocol has not been
forwarded to the Senate for ratification.

In the Fiscal Year 2000 appropriations laws applicable to the Department of Energy, the Congress included
language prohibiting the expenditure of funds to propose or issue rules, regulations, decrees, or orders for
the purpose of implementation, or in preparation for implementation, of the Protocol.

The objective of our audit was to determine whether funds were expended to implement the Kyoto
Protocol, or to prepare for its implementation. The audit was initiated pursuant to a congressional request.

RESULTS OF AUDIT

We found no evidence that funds were expended to issue specific policies to implement the Protocol.
However, the Department is involved in conferences and activities aimed at developing necessary
procedures and mechanisms in preparation for implementing the Protocol, if ratified. Department
representatives have attended a number of conferences
related to global climate change, including some where the Protocol was the primary topic. The
Department also participates in international negotiations aimed at elaborating on the Kyoto mechanisms to
further define the Protocol, reducing the cost of its implementation, and encouraging participation by other
countries.
                                                     -2-


Most Department officials involved in climate change activities had not reviewed the specific
appropriations language, but were aware that it existed. They also had varying interpretations of its
meaning relative to day-to-day activities. Program officials drew a distinction between setting specific
implementation policies, which they acknowledged would be prohibited, and conducting general program
activities and research related to climate change, which they regarded as being consistent with the
Department's mission. Policy officials viewed negotiations regarding the Protocol as necessary and
legitimate because considerable clarification was needed before the Protocol could be credibly presented to
the Senate for ratification. None of the officials we spoke to had asked for or had been provided interpretive
guidance on the restrictions on Protocol activities in the appropriations acts.

The Office of Inspector General is aware that the restrictive appropriations language is a matter of some
debate within the Congress and the Administration. In the course of our audit we reviewed statements by
Representative Knollenberg, who is a sponsor of the restrictive language. We also reviewed a statement by
Representatives Waxman and Pallone. In their statement, Congressmen Waxman and Pallone argue that
neither the appropriations language nor its congressional intent prohibits discussions, workshops, seminars,
policy development, or other non-regulatory activity. Additionally, we considered the President's statement
made upon signing the Fiscal Year 2000 Consolidated Appropriations Act. In that statement, the President
noted that "…to the extent these provisions could be read to prevent the United States from negotiating with
foreign governments about climate change, it would be inconsistent with my constitutional authority.
Accordingly, I will construe this provision as not detracting from my authority to engage in the many
activities, both formal and informal, that constitute negotiations relating to climate change."

In light of the varying interpretations of the appropriations language and the controversy that language has
engendered, the Office of Inspector General recommends that the Department provide to its employees a
formal interpretation on the appropriateness of activities in relation to the statutory prohibition. Once
provided, the guidance should be adopted by all Departmental offices having an interest in climate change
and related activities. We were informed by the Offices of Inspector General at the Department of State
and the Environmental Protection Agency that those agencies have issued such guidance to assist
employees in determining the appropriateness of program activities.

MANAGEMENT REACTION

The Director, Office of Policy agreed to develop appropriate guidance, in cooperation with affected
program offices and the General Counsel.


Attachment


cc:    Deputy Secretary
       Under Secretary for Energy, Science and Environment
THE U.S. DEPARTMENT OF ENERGY’S GLOBAL CLIMATE
CHANGE ACTIVITIES

TABLE OF
CONTENTS
                Overview

                Introduction and Objective .............................................. 1


                Conclusions and Observations ....................................... 2


                The Department’s Global Climate Change Activities

                Details of Finding ............................................................ 3


                Recommendation and Comments................................... 6


                Appendices

                1. The Department’s Major Climate Change Activities ...8

                2. Scope and Methodology………………………………...9
Overview

INTRODUCTION    The United States and other countries have entered into international
AND OBJECTIVE   negotiations and agreements to address the potential consequences of
                climate change. In 1992, the United States ratified the United Nations
                Framework Convention on Climate Change (FCCC), which contained a
                voluntary goal for the United States of reducing greenhouse gas net
                emissions to their 1990 level by 2000.

                The FCCC also established a Conference of the Parties (COP) as the
                supreme body of the Convention and required ordinary sessions of the
                COP to be held each year. In December 1997, more than 160 nations
                met in Kyoto, Japan, for the third COP. The purpose of this conference
                was to negotiate a protocol creating quantified limitations or reductions
                objectives on the emissions of greenhouse gases. The Kyoto Protocol
                (Protocol) set the limitations on the emissions of the developed nations
                and introduced the use of "flexibility mechanisms" to minimize the
                costs of cutting emissions both in the United States and globally.

                The Protocol mandates commitments to limit or reduce greenhouse gas
                emissions for developed countries but not for developing countries.
                Fiscal Year 2000 appropriations laws applicable to the Department of
                Energy contain language prohibiting the expenditure of funds "…to
                propose or issue rules, regulations, decrees, or orders for the purpose of
                implementation, or in preparation for implementation, of the Kyoto
                Protocol."

                The Department is engaged in the conduct of research and the
                development of technologies that are intended to increase energy
                efficiency and reduce harmful emissions. It is also the Department's
                responsibility to propose and discuss policies to achieve these
                outcomes. These mission requirements overlap, to a significant extent,
                the Protocol's intended outcomes. As a consequence, the restrictive
                language in the appropriations poses a dilemma to Department
                managers: how best to meet statutory mission requirements without
                violating the appropriations prohibition.

                Pursuant to a congressional request, the objective of our audit was to
                determine whether funds were expended to implement the Kyoto
                Protocol, or to prepare for its implementation.




Page 1                                                     Introduction And Objective
CONCLUSIONS AND   We found no evidence that funds were expended to issue specific policies
OBSERVATIONS      to implement the Protocol. However, the Department is involved in
                  conferences and activities aimed at developing necessary procedures and
                  mechanisms in preparation for implementing the Protocol, if ratified.
                  Department representatives attended a number of conferences related to
                  global climate change, including some where the Protocol was discussed.
                  The Department also participated in international negotiations aimed at
                  establishing mechanisms to further define the Protocol, reducing the cost
                  of its implementation, and encouraging participation by other countries.
                  As noted above, these activities may well have been consistent with
                  recognized Department of Energy missions.

                  Responsible Department officials had varying interpretations of the
                  restrictive appropriations language and none had asked for or been
                  provided with guidance on the appropriations restriction. The
                  Department's representation at certain meetings and its participation in
                  international negotiations could be interpreted as "preparing" for the
                  implementation of the Protocol. During our review we also noted that
                  the interpretation of the restrictive appropriations language as it affects
                  the day-to-day operations of the Department is a matter of some debate
                  within the Congress. The Office of Inspector General therefore
                  recommends that the Department obtain a General Counsel interpretation
                  on the appropriateness of activities in relation to the prohibition in the
                  appropriations language.

                  We discussed the issues in this report with the Offices of Science, Energy
                  Efficiency and Renewable Energy, Fossil Energy, and Policy in March
                  2000.




                                         _______(Signed)________
                                         Office of Inspector General




Page 2                                                  Conclusions And Observations
The Department’s                                               The Department's Fiscal Year 2000 budget allocated almost $1.7 billion
Global Climate Change                                          for programs to address climate change. The overall goal of these
Activities                                                     programs is to provide a comprehensive approach to better
                                                               understanding and addressing global climate change. We discussed the
                                                               funded research and technologies with the Offices of Energy Efficiency
                                                               and Renewable Energy, Fossil Energy, and Science.1 We found no
                                                               indication that funds expended by these offices were used to issue
                                                               policies implementing the Protocol.2 However, the Department is
                                                               involved in conferences and program activities aimed at developing
                                                               necessary procedures and mechanisms in preparation for implementing
                                                               the Protocol, if ratified.

                                                                                       Attendance at Climate Change Conferences

                                                               The Department spent approximately $2,900 in travel and salary costs
                                                               to send one representative to the two-day "Sustainable Climate
                                                               Protection Policies" workshop in Berlin, Germany in February 2000.
                                                               The purpose of this conference, according to the goals listed on the
                                                               agenda, were:

                                                                                         1) To convene from both public and private sectors
                                                                                         authorities on climate protection for a candid discussion
                                                                                         of how best to complete the Kyoto Protocol in terms of
                                                                                         economic, social, cultural, and political considerations,
                                                                                         and 2) To discuss on a national basis current best
                                                                                         practices and related challenges with respect to climate
                                                                                         protection policies and measures assessing the potential
                                                                                         role of economic costs and benefits, new technologies,
                                                                                         social issues and commercial options in achieving
                                                                                         longer term climate protection goals.

                                                               Department of Energy representatives have also been sent to a number
                                                               of other conferences related to global climate change, including the
                                                               annual FCCC Conference of the Parties (COP) meetings. For example,
                                                               employees from the Offices of Policy and Energy Efficiency and
                                                               Renewable Energy regularly attend the COP meetings and the Office of
                                                               Policy has sent individuals to at least three other workshops relating to
                                                               the negotiation of Protocol mechanisms. Travel costs associated with
                                                               these three meetings totaled about $8,700.



__________________
1
    A brief discussion of the Department's major climate change activities is included in Appendix 1.
2
    For reporting purposes the phrase "issue policies" is synonymous with "issue rules, regulations, decrees, or orders " as referred to in the appropriations language.

Page 3                                                                                                                                                   Details of Finding
                                                                                     Active Negotiations to Clarify the Protocol

                                                             The Office of Policy contributes directly to U.S. participation in
                                                             international negotiations under the FCCC, including negotiations that
                                                             focus primarily on the development of the Protocol's flexibility
                                                             mechanisms – emissions trading, the Clean Development Mechanism,
                                                             and Joint Implementation. The flexibility mechanisms involve a system
                                                             of trading allowances and a system for generating credits from projects
                                                             in developing countries. The allowances and the credits can be used to
                                                             meet developed countries’ emission limitation obligations.

                                                             Policy officials told us that because emissions trading and the other
                                                             flexibility mechanisms are new concepts to most other countries,
                                                             considerable effort is required to help these countries understand how
                                                             such mechanisms would work in practice. Full use of the flexibility
                                                             mechanisms outlined in the Protocol are viewed as essential to
                                                             minimize the costs of cutting greenhouse gas emissions both in the
                                                             United States and globally. These mechanisms also can provide a
                                                             strong economic incentive for all countries, including developing
                                                             countries, to make meaningful commitments to cut greenhouse gas
                                                             emissions. Some countries have proposed restricting the use of the
                                                             mechanisms set forth in the Protocol. The U.S. strongly opposes such
                                                             restrictions. Therefore, obtaining support of other countries, both
                                                             developed and developing, for the full use of the mechanisms is a key
                                                             U.S. objective.

                                                             In addition to efforts to support the further development and acceptance
                                                             of the flexibility mechanisms, the Department is assisting developing
                                                             countries interested in limiting their greenhouse gas emissions. We
                                                             were informed that Department efforts in this regard are meant to assist
                                                             developing countries in understanding their own emissions of
                                                             greenhouse gases and the technologies and public policies that might be
                                                             used to limit these emissions. The interagency efforts are designed to
                                                             help achieve global participation in efforts to cut greenhouse gas
                                                             emissions.

Fiscal Year 2000                                             Relative to climate change, for Fiscal Year 2000, the Department
Appropriations Language                                      received its funding under the Energy and Water Development
                                                             Appropriations Act (P.L. 106-60) and the Interior and Related Agencies
                                                             Appropriations Act (P.L. 106-113).3 Each of these appropriations acts
                                                             contained the restriction that, "[n]one of the funds appropriated by


_____________________
3
    During the course of our review, we identified another provision regarding Kyoto-related expenditures in the Interior and Related Agencies
Appropriations Act, at section 568. As appropriate, the Department should also consider this language as it develops interpretive guidance.

Page 4                                                                                                                                           Details of Finding
                              [these Acts] shall be used to propose or issue rules, regulations, decrees
                              or orders for the purpose of implementation, or in preparation for
                              implementation, of the Kyoto protocol...."

Department's Interpretation   We found that guidance was needed to ensure that the Department does
of the Appropriations         not expend funds – or appear to spend funds – in violation of the
Restriction                   appropriations language and to ensure a consistent application of the
                              Protocol restriction. Most Department officials involved in climate
                              change activities had not reviewed the specific appropriations language,
                              but were aware that it existed. They also had varying interpretations of
                              its meaning relative to day-to-day activities. In interviews with
                              program office officials, a distinction was drawn between setting
                              specific policies, which they viewed as prohibited, and conducting
                              program activities and research related to climate change, which is
                              within the Department's statutory mission. With respect to specific
                              meetings and conferences where the Protocol is discussed, different
                              opinions were presented on the types of such events that Department
                              employees would be permitted to attend. The decision as to whether
                              attending such meetings would violate the appropriations seemed to be
                              largely a matter of individual discretion. Regarding international
                              negotiations, Policy officials believed that such negotiations were
                              necessary and legitimate because the Protocol needed considerable
                              clarification before it could be credibly presented to the Senate for
                              ratification.

                              We queried each responsible program office, the Office of Policy, the
                              Office of Chief Financial Officer, and the Office of General Counsel to
                              determine whether corporate guidance about the restrictive
                              appropriations language existed. No such guidance had been issued. In
                              contrast, we were informed by the Offices of Inspector General at the
                              Department of State and the Environmental Protection Agency, each of
                              which has identical restrictive language in its appropriations, that these
                              agencies have issued guidance on the Protocol to their employees.

                                                   Presidential Signing Statement

                              We noted that the President, in signing into law the Consolidated
                              Appropriations Act for Fiscal Year 2000, addressed the Protocol
                              restriction. The President stated:

                                          I continue to believe that various provisions prohibiting
                                          implementation of the Kyoto Protocol in this bill are
                                          unnecessary, as my Administration has no intent of
                                          implementing the Protocol prior to ratification.
                                          Furthermore, I will consider activities that meet our


Page 5                                                                              Details of Finding
                                          responsibilities under the ratified U.N. Framework
                                          Convention on Climate Change to be consistent with this
                                          provision. Finally, to the extent these provisions could
                                          be read to prevent the United States from negotiating
                                          with foreign governments about climate change, it would
                                          be inconsistent with my constitutional authority.
                                          Accordingly, I will construe this provision as not
                                          detracting from my authority to engage in the many
                                          activities, both formal and informal, that constitute
                                          negotiations relating to climate change.

Continuing Participation in   The signing statement, when contrasted with the language in the
Global Climate Change         statute, suggests policy interpretation issues which, in our judgment,
                              require clarification and guidance.


                              The Department's representation at certain meetings and its
                              participation in international negotiations could be interpreted as
                              "preparing" for the implementation of the Protocol. We concluded
                              that formal guidance is needed so that program officials have a more
                              precise and uniform understanding of which activities are consistent
                              with the statutory requirements.


RECOMMENDATION                We recommend that the Director, Office of Policy, in coordination
                              with affected program offices and with the advice of the Office of
                              General Counsel, issue guidance interpreting the appropriations
                              language regarding the Kyoto Protocol. The guidance should
                              specifically address:

                              •   Department interpretation of the appropriations language within
                                  the context of DOE’s climate change mission;

                              •   attendance by Department employees and contractors at meetings
                                  and conferences associated with climate change; and

                              •   negotiations regarding climate change.

MANAGEMENT                    In his response to our draft report, the Director, Office of Policy
REACTION                      stated that the report provided a good overview of the Department’s
                              climate change responsibilities. He also agreed to work with the
                              Office of General Counsel and the affected program offices to more
                              formally interpret the appropriations language and issue specific
                              guidance to staff about what activities are prohibited by the
                              amendment.

Page 6                                                           Recommendation and Comments
           The Director noted that some guidance already existed. His comments
           indicated that the Department was a part of an interagency process that
           discussed the appropriations language and culminated in the President’s
           signing statement.

           The Director disagreed with the statement made in the report that
           ongoing activities could be interpreted as “preparing” to implement the
           Protocol. He maintained that such activities are consistent with the
           Department’s mission and his interpretation of the language.


AUDITOR    The Director’s comments are responsive to our recommendation. The
COMMENTS   Office of Policy should establish an action plan for prompt issuance of
           the proposed guidance.

           We agree that the President’s signing statement (quoted on page 5),
           provides some guidance to the affected agencies. We found, however,
           that most officials we spoke to during the audit were not aware of the
           statement or its applicability to their activities. Consequently, we
           concluded that guidance specifically addressing Department activities is
           necessary to clarify conflicting interpretations of the appropriations
           language.

           As noted in the report, we recognize that interpretations differ as to the
           meaning of the appropriations language relative to the Department’s
           mission.




 Page 7                                       Recommendation and Comments
 APPENDIX 1

                THE DEPARTMENT'S MAJOR CLIMATE CHANGE ACTIVITIES

 The Fiscal Year 2000 budget for the Department included almost $1.7 billion for spending programs to
 address climate change. This funding generally falls into three major program areas. The Climate Change
 Technology Initiative and the U.S. Global Change Research Program are the largest of the climate change
 programs. The third area, Other Climate-Related Programs, is made up of five smaller initiatives.
 Collectively these program areas provide a comprehensive approach to better understanding and
 addressing the challenge of global climate change.

                                   Climate Change Technology Initiative

 The Climate Change Technology Initiative (CCTI) is the cornerstone of the President's efforts to stimulate
 the development and use of sustainable and renewable domestic energy technologies and energy efficient
 products that will help reduce greenhouse gas emissions. This portfolio will help reduce U.S. greenhouse
 gas emissions while cost effectively addressing national priorities – improving energy security, improving
 local air quality and increasing energy savings. Funding for the CCTI covers the four major carbon
 emitting sectors of the economy – buildings, transportation, industry, and electricity – as well as carbon
 sequestration.

 The Department's Office of Energy Efficiency and Renewable Energy (EE) is primarily responsible for the
 CCTI and controls approximately 96% of the Department's total budget for CCTI. The Offices of Fossil
 Energy (FE) and Science also receive funding for climate change activities through the CCTI.

                                  U.S. Global Change Research Program

 The Department’s research activities under the U.S. Global Change Research Program are administered by
 the Department's Office of Science. DOE research seeks to provide a sound scientific understanding of
 both the human and natural forces that influence the Earth's climate system. The information produced by
 the program's scientists is used by national and international policy makers to make informed decisions on
 global change issues.

                                     Other Climate-Related Programs

 Several other programs in the climate change budget exist primarily for other purposes, but contribute to
 improving energy efficiency and reducing greenhouse gas emissions. The programs in this category
 include Weatherization and State Energy Grants, programs that increase the efficiency of coal and natural
 gas combustion and utilization, and nuclear energy research and development.




Page 8                                             The Department’s Major Climate Change Activities
 APPENDIX 2
 SCOPE          The audit was performed between February 2000 and April 2000. We
                performed audit work at Headquarters offices in Washington, DC and
                Germantown, Maryland.

  METHODOLOGY   To accomplish the audit objective, we:

                •   Obtained and reviewed applicable regulations, other agency
                    guidance, and appropriations related to the Department of Energy
                    and climate change activities;

                •   Reviewed related GAO reports and testimony;

                •   Reviewed the primary goals and objectives of the Framework
                    Convention on Climate Change and the Kyoto Protocol;

                •   Coordinated with Office of Inspector General counterparts in the
                    Department of State and the Environmental Protection Agency
                    (EPA) to identify their position on the climate change activities in
                    their agencies;

                •   Interviewed Departmental officials working in the climate change
                    arena, including individuals in the Offices of Policy, Science,
                    Energy Efficiency and Renewable Energy, and Fossil Energy;

                •   Evaluated the Department's climate change activities against the
                    appropriations prohibition and Anti-Deficiency Act regulations; and

                •   Reviewed the Department’s draft Strategic Plan, prepared in
                    conformance with the Government Performance and Results Act, to
                    understand relevant performance measures.

                The audit was performed in accordance with generally accepted
                Government auditing standards for performance audits and included
                tests of internal controls and compliance with laws and regulations to
                the extent necessary to satisfy the audit objective. Because our review
                was limited, it would not necessarily have disclosed all internal control
                deficiencies that may have existed at the time of our audit. We did not
                rely on computer-processed data to accomplish our audit objective.

                An exit conference was held with the Offices of Policy, Science, Energy
                Efficiency and Renewable Energy, and Fossil Energy on April 4, 2000.




Page 9                                                         Scope and Methodology
                                                                          Report No. DOE/IG-0467


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers to
the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                           U.S. Department of Energy
                                             Washington, D.C. 20585
                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
